USCA11 Case: 20-13804

Date Filed: 05/19/2021

Page: 1 of 5

P-O NOT PI IRT ISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-13804
Non-Argument Calendar

D.C. Docket No. l:20-cv-23440-BB

WILLIE FRANK WALKER,
Plaintiff-Appellant,
versus
ATTORNEY GENERAL, STATE OF FLORIDA,
HERBERT ERVING WALKER, III,
in his personal and official capacity,
Defendants-Appellees.

Appeal from the United States District Court
for the Southern District of Florida

(May 19, 2021)
Before JILL PRYOR, NEWSOM, and LUCK, Circuit Judges.
PER CURIAM:

USCA11 Case: 20-13804

Date Filed: 05/19/2021

Page: 2 of 5

Willie Walker, proceeding-pro^e, appeals the district court’s suasponte.
dismissal of his civil complaint for lack of subject-matter jurisdiction and failure to
state a claim. The gist of his complaint was that, in his past state criminal case, the
state prosecutor failed to show that the state court had jurisdiction over him. On
appeal, Walker doesn’t challenge the district court’s finding that it lacked
jurisdiction to consider his complaint. Instead, he reiterates that Appellee Herbert
Walker, the prosecutor in his state-court case, violated his constitutional rights by
failing to answer his post-conviction jurisdictional challenges in that case. He
states that this failure deprived the state court of subject-matter jurisdiction and
references the Accardi doctrine1 as a source of relief. He doesn’t address Appellee
Ashley Moody’s involvement in the matter.
We review de novo a district court’s dismissal of a complaint for lack of
subject-matter jurisdiction. Center v. Sec ’y, Dep ’t ofHomeland Sec., 895 F.3d
1295, 1299 (11th Cir. 2018). The party asserting the claim bears the burden of
establishing federal subject matter jurisdiction. Williams v. Poarch Band of Creek
Indians, 839 F.3d 1312, 1314 (11th Cir. 2016). We also review de novo a district
court’s dismissal for failure to state a claim upon which relief can be granted.
Behrens v. Regier, 422 F.3d 1255, 1259 (11th Cir. 2005).

The Accardi doctrine—derived from United States ex rel. Accardi v. Shaughnessy, 347 U.S.
260 (1954)—“stands for the unremarkable proposition that an agency must abide by its own
regulations,” Chevron Oil Co. v. Andrus, 588 F.2d 1383, 1386 (5th Cir. 1979).
2

USCA11 Case: 20-13804

Date Filed: 05/19/2021

Page: 3 of 5

Courts should libeially constme-pro se pleadings. Alba v. Montford, 51-7F.3d 1249, 1252 (11th Cir. 2008). But courts can’t rewrite otherwise deficient
pleadings in order to sustain actions. Campbell v. Air Jamaica Ltd., 760 F.3d
1165, 1168-69 (11th Cir. 2014). And pro se litigants still must conform to
procedural rules. Albra v. Advan, Inc., 490 F.3d 826, 829 (11th Cir. 2007).
Federal courts may adjudicate cases only when both the Constitution and a
federal statute grant jurisdiction. Univ. ofS. Ala. v. Am. Tobacco Co., 168 F.3d
405, 409 (11th Cir. 1999). Courts have an independent obligation to inquire into
subject-matter jurisdiction. Id. at 410. If a court lacks subject-matter jurisdiction
over a claim, it must dismiss it. Fed. R. Civ. P. 12(h)(3).
Under the Federal Rules of Civil Procedure, a pleading must contain “a short
and plain statement of the claim showing that the pleader is entitled to relief.” Fed.
R. Civ. P. 8(a)(2). Generally, a complaint is not required to contain detailed
factual allegations, but “a plaintiffs obligation to provide the grounds of his
entitlement to relief requires more than labels and conclusions.” Bell Atlantic
Corp. v. Twombly, 550 U.S. 544, 555 (2007) (cleaned up). The complaint must
contain enough facts to make a claim for relief plausible on its face—that is, the
factual content must allow the court to “draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009). Further, although pro se pleadings are liberally construed, they still
3

USCA11 Case: 20-13804

Date Filed: 05/19/2021

Page: 4 of 5

must suggest some factual basis for a claim. Junes v. Fla. Parole-Gomm ’n, 787
F.3d 1105, 1107 (11th Cir. 2015).
The district court properly dismissed Walker’s case because both his
complaint and his amended complaint failed to allege any basis for subject-matter
jurisdiction or relief. First, as to jurisdiction, Walker failed to allege diversity of
citizenship and, although he purported to travel under federal-question jurisdiction,
he failed to allege sufficient facts for the district court to assess whether it
possessed such jurisdiction. On appeal, he doesn’t direct our attention to any
federal cause of action authorizing his action against his state prosecutor for failing
to demonstrate that the state court had jurisdiction. We lack a general supervisory
power over state courts. Rogers v. McMullen, 673 F.2d 1185, 1188 (11th Cir.
1982).2
Second, even assuming jurisdiction existed, Walker failed to allege any clear
ground for relief. His threadbare assertion that Herbert Walker failed to answer his
jurisdictional challenges didn’t provide factual context from which the district

2 Although Walker doesn’t claim to seek a writ of habeas corpus, the district court correctly
noted that he failed to allege that he exhausted state remedies, as he would be required to do if he
sought the writ. See 28 U.S.C. § 2254(b)(1)(A); O’Sullivan v. Boerckel, 526 U.S. 838, 845
(1999).
4

USCA11 Case: 20-13804

Date Filed: 05/19/2021

Page: 5 of 5

misconduct.3
Accordingly, we AFFIRM.

(

3 Walker’s reference to the Accardi doctrine doesn’t change this result. Walker didn’t allege a
violation of any specific rule or regulation or allege any action by a federal agency, so Accardi
provides no basis for relief. See Chevron, 588 F.2d at 1386.
5

USCA11 Case: 20-13804

Date Filed: 05/19/2021

Page: 1 of 2

STATir<:
np app^t s
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Clerk of Court

May 19, 2021
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 20-13804-HH
Case Style: Willie Walker v. Attorney General, State of FI., et al
District Court Docket No: 1:20-cv-23440-BB
This Court requires all counsel to file documents electronically using the Electronic Case
Files ("ECF") system, unless exempted for good cause. Non-incarcerated pro se parties
are permitted to use the ECF system by registering for an account at www.pacer.gov.
Information and training materials related to electronic filing, are available at
www.call.uscourts.gov. Enclosed is a copy of the court's decision filed today in this appeal.
Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a
later date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for
filing a petition for rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise
provided by FRAP 25(a) for inmate filings, a petition for rehearing or for rehearing en banc is
timely only if received in the clerk's office within the time specified in the rules. Costs are
governed by FRAP 39 and 11th Cir.R. 39-1. The timing, format, and content of a motion for
attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2 and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested
Persons a complete list of all persons and entities listed on all certificates previously filed by
any party in the appeal. See 11th Cir. R. 26.1-1. In addition, a copy of the opinion sought to be
reheard must be included in any petition for rehearing or petition for rehearing en banc. See
11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming
compensation for time spent on the appeal no later than 60 days after either issuance of mandate
or filing with the U.S. Supreme Court of a petition for writ of certiorari (whichever is later) via
the eVoucher system. Please contact the CJA Team at (404) 335-6167 or
cja_evoucher@cal 1.uscourts.gov for questions regarding CJA vouchers or the eVoucher
system.
Pursuant to Fed.R.App.P. 39, each party to bear own costs.

USCA11 Case: 20-13804

Date Filed: 05/19/2021

Page: 2 of 2

For questions concerning the issuance of the decision of this court, please call the number
referenced in the signature block below. For all other questions, please call Christopher
Bergquist. HH at 404-335-6169.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Jeff R. Patch
Phone#: 404-335-6151
OPIN-1A Issuance of Opinion

Case l:20-cv-23440-BB Document 7 Entered on FLSD Docket 09/03/2020 Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 20-cv-23440-BLOOM/Louis
WILLIE FRANK WALKER,
Plaintiff,
v.
ASHLEY MOODY, et al.,
Defendants.
ORDER
THIS CAUSE is before the Court upon a sua sponte review of the record. Pro se Plaintiff
filed a complaint, ECF No. [1] on August 19, 2020. That same day, the Court dismissed the thenpending complaint without prejudice and Ordered Plaintiff to file an amended complaint asserting
a basis for the Court’s jurisdiction and relief. ECF No. [4] (“Order”). In the Order, the Court
explained that the complaint failed to allege grounds for federal court jurisdiction, and that Plaintiff
failed to set forth an actionable claim upon which relief could be granted.
Plaintiff has now filed an Amended Complaint, ECF No. [6], but the pleading still fails to
cure the deficiencies in the original complaint. For example, the Amended Complaint states that
this Court “lacks subject matter and personal jurisdiction,” this Court must “provide it has subject
matter jurisdiction,” and Florida state courts lacked jurisdiction over him. Id. Although the Court
construes pro se filings more leniently than pleadings drafted by counsel, the Court again cannot
discern a basis for its jurisdiction or a cause of action.
Accordingly, it is ORDERED AND ADJUDGED that the Amended Complaint, ECF No.

Case l:20-cv-23440-BB Document 7 Entered on FLSD Docket 09/03/2020 Page 2 of 2
Case No. 20-23440-BLOOM/Louis
case.

^£6], is DISMISSED.

DONE AND ORDERED in Miami, Florida, this 3rd day of September, 2020.

BETH BLOOM
UNITED STATES DISTRICT JUDGE
Copies to:
Counsel of Record
Willie Frank Walker
3311 N.W. 182nd Street
Miami Gardens, FL 33056

2

